           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcement—                            Date:    June 18, 2007
           FAA’s Management and Maintenance of Air
           Traffic Control Facilities
           Federal Aviation Administration
           Project No. 07A3017A000

  From:                                                             Reply to
           David A. Dobbs                                           Attn. of:   JA-10
           Principal Assistant Inspector General for
            Auditing and Evaluation

    To:    Assistant Administrator for Financial Services
            and Chief Financial Officer

           The Federal Aviation Administration (FAA) provides air traffic control services at
           over 300 Agency-operated air traffic control facilities throughout the Nation.
           According to FAA, many of these facilities are over 25 years old and some may have
           exceeded their useful life expectancy and may not meet current operational
           requirements. Additionally, Congress and other stakeholders have expressed concern
           regarding whether FAA has adequately funded necessary facility repairs and
           improvements, as the Agency’s capital account has remained flat over the past several
           years.

           The Office of Inspector General plans to conduct an audit to evaluate whether FAA
           has an adequate system in place to repair, replace, and modernize its air traffic control
           facilities. We are conducting this review in response to a May 31, 2007, request from
           Representative James Oberstar, Chairman of the House Committee on Transportation
           and Infrastructure. Specifically, Chairman Oberstar requested that we examine the
           overall state of FAA facilities and determine what corrective actions are required.
           The objectives of this audit will be to determine if FAA has (1) developed and
           implemented a comprehensive strategy to effectively manage the replacement, repair,
           and modernization of its air traffic control facilities and (2) allocated sufficient funds
           to carry out those activities.
                                                                                   2

We plan to begin this audit the week of June 25, 2007. We will contact your audit
liaison to arrange a formal entrance conference. If you have any questions or require
additional information, please contact Angela McCallister, Project Manager, at
(202) 366-1451, or Daniel Raville, Program Director, at (202) 366-1405.


                                         #


cc: FAA Administrator, AOA-1
    FAA Chief of Staff, AOA-2
    FAA Audit Liaison, ABU-100
    OST Audit Liaison, M-1
